PROOF OF SERVICE
I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify
that on the 26th day of March, 2021, three (3) copies of the Brief Amici Curiae of the
Pacific Justice Institute, et al., supporting granting the Petition in No. 20-1163,
Gloucester County School Board v. Grimm, were served by first-class mail, postage
pre-paid, on the following:
Gene Clayton Schaerr
Counsel of Record for Petitioner
Schaerr | Jaffe
1717 K Street NW, Suite 900
Washington, DC 20006
Joshua A. Block
Counsel of Record for Respondent
American Civil Liberties Union Foundation
125 Broad Street
Floor 18
New York, NY 10004

/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

